                     Federal Register / Vol. 64, No. 189 / Thursday, September 30, 1999 / Notices                             52791

from respondents The Wire Works, Inc.,        representation covered by the order.         1262 varieties of cigarettes
and Electrodes, Inc.                          Part III of the proposed order requires      manufactured and sold in the United
   The proposed consent order has been        the respondents to distribute copies of      States in 1996, and of 1252 varieties
placed on the public record for sixty         the order to certain company officials       sold in 1997. The Tobacco Institute
(60) days for reception of comments by        and employees. Part IV of the proposed       Testing Laboratory (TITL), a private
interested persons. Comments received         order requires the respondents to notify     laboratory operated by the cigarette
during this period will become part of        the Commission of any change in the          industry, conducted the ‘‘tar,’’ nicotine,
the public record. After sixty (60) days,     corporations that may affect compliance      and carbon monoxide testing for the
the Commission will again review the          obligations under the order. Part V of       widely-available domestic cigarette
agreement and the comments received           the proposed order requires the              varieties. This testing was conducted
and will decide whether it should             respondents to file one or more              under the review of a representative of
withdraw from the agreement and take          compliance reports. Part VI of the           the FTC through periodic unannounced
other appropriate action or make final        proposed order is a provision whereby        inspections. TITL provided the results
the agreement’s proposed order.               the order, absent certain circumstances,     to the respective cigarette companies,
   This matter concerns advertising,          terminates twenty years from the date of     which then provided the data generated
labeling, and promotional practices           issuance.                                    by TITL regarding their own brands to
related to the sale of brass electrical          The purpose of this analysis is to        the Commission in response to
discharge machining (‘‘EDM’’) wire            facilitate public comment on the             compulsory process. Cigarette smoke
electrodes. Wire EDM is a metal removal       proposed consent order. It is not            from generic, private label, and not­
technique that is used to cut metal parts.    intended to constitute an official           widely-available cigarettes was not
The Commission’s complaint charges            interpretation of the agreement and          tested by TITL, but was tested by the
that respondents misrepresented that          proposed order or to modify in any way       cigarette companies and the test results
certain of its EDM wire electrodes were       their terms.                                 were provided to the FTC in response to
all or virtually all made in the United                                                    compulsory process.
States when, in truth and in fact, a            By direction of the Commission.
                                                                                              In response to concerns that have
substantial portion of their content was      Donald S. Clark,                             been raised regarding the accuracy and
of foreign origin.                            Secretary.                                   utility of the testing method currently
   The proposed consent order contains        [FR Doc. 99–25419 Filed 9–29–99; 8:45 am]    used to determine the ‘‘tar,’’ nicotine,
a provision that is designed to remedy        BILLING CODE 6750–01–M                       and carbon monoxide ratings of
the charges and to prevent the                                                             cigarettes, the Commission in 1998
respondents from engaging in similar                                                       requested the assistance of the
acts and practices in the future. Part I of   FEDERAL TRADE COMMISSION                     Department of Health and Human
the proposed order prohibits the                                                           Services in reviewing the scientific and
respondents from misrepresenting the          Report of the ‘‘Tar,’’ Nicotine, and         public health questions surrounding the
extent to which their EDM wire                Carbon Monoxide of the Smoke of              test method and, if appropriate,
electrodes are made in the United             1262 Varieties of Domestic Cigarettes        determining how the test method
States. The proposed order would allow        for the Year 1996 and Report of the          should be changed. In its July 1999
respondents to represent that such EDM        ‘‘Tar,’’ Nicotine, and Carbon Monoxide       ‘‘Report to Congress for 1997, Pursuant
wire electrodes are made in the United        of the Smoke of 1252 Varieties of            to the Cigarette Labeling and
States as long as all, or virtually all, of   Domestic Cigarettes for the Year 1997        Advertising Act,’’ the Commission
the components of the EDM wire                                                             recommended that Congress consider
                                              ACTION:   Notice.
electrodes are of U.S. origin and all, or                                                  giving authority over cigarette testing to
virtually all, of the labor in                SUMMARY:   The Federal Trade                 one of the Federal government’s
manufacturing them is performed in the        Commission publishes the ‘‘Report of         science-based, public health agencies.
United States. It also would allow            the ‘Tar,’ Nicotine, and Carbon
respondents to make a representation                                                         By direction of the Commission.
                                              Monoxide of the Smoke of 1262
regarding the U.S. origin or U.S. content                                                  Donald S. Clark,
                                              Varieties of Domestic Cigarettes for the
of their EDM wire electrodes product as                                                    Secretary.
                                              Year 1996’’ and the ‘‘Report of the ‘Tar,’
permitted in future regulations, guides,      Nicotine, and Carbon Monoxide of the         [FR Doc. 99–25417 Filed 9–29–99; 8:45 am]
or enforcement policy statements              Smoke of 1252 Varieties of Domestic          BILLING CODE 6750–01–M
promulgated by the Commission. The            Cigarettes for the Year 1997.’’
proposed order further would allow            DATES: September 30, 1999.
respondents to describe the specific                                                       DEPARTMENT OF HEALTH AND
                                              ADDRESSES: Copies of the reports are
processing that is performed on the                                                        HUMAN SERVICES
product in the United States, e.g., that      available from the FTC’s World Wide
the product is ‘‘Drawn in the U.S.A.,’’       Web site at: http://www.ftc.gov and          Office of Inspector General
‘‘Annealed in U.S.A.,’’ ‘‘Coldworked in       from the FTC’s Public Reference Branch,
U.S.A.,’’ or ‘‘Strengthened in U.S.A.,’’ so   Room 130, 600 Pennsylvania Ave., NW.,        Publication of the OIG Special
long as the claim is truthful and             Washington, DC 20580. Telephone (202)        Advisory Bulletin on the Effect of
substantiated. If the product is not last     326–3128.                                    Exclusion From Participation in
substantially transformed in the United       FOR FURTHER INFORMATION CONTACT:             Federal Health Care Programs
States, the proposed order would              Michael Ostheimer, Staff Attorney            AGENCY: Office of Inspector General
require the respondents to comply with        Federal Trade Commission, Bureau of          (OIG), HHS.
regulations and rulings issued by the         Consumer Protection, 600 Pennsylvania
                                                                                           ACTION: Notice.
U.S. Customs Service under section 304        Ave., NW., Washington, DC 20580.
of the Tariff Act, 19 U.S.C. 1304.            Telephone (202) 326–2699.                    SUMMARY:  In its role of identifying and
   Part II of the proposed order requires     SUPPLEMENTARY INFORMATION: These             eliminating fraud, waste and abuse in
the respondents to maintain materials         reports contain data on the ‘‘tar,’’         the Department’s health care programs,
relied upon in disseminating any              nicotine and carbon monoxide yields of       the OIG periodically develops and
52792                    Federal Register / Vol. 64, No. 189 / Thursday, September 30, 1999 / Notices

issues guidance, including Special                    authority to exclude individuals and                  Medicare and Medicaid Patient and
Fraud Alerts and Advisory Bulletins, to               entities from the Federal health care                 Program Protection Act of 1987, Public
alert and inform health care providers                programs. These laws also expanded the                Law 100–93, expanded and revised the
and program beneficiaries about                       OIG’s authority to assess CMPs against                OIG’s administrative sanction
potential problems or areas of special                individuals and entities that violate the             authorities by, among other things,
interest. This Federal Register notice                law. With this expanded authority, the                establishing certain mandatory and
sets forth the recently-issued OIG                    OIG believes that it is important to                  discretionary exclusions for various
Special Advisory Bulletin addressing                  explain the effect of program exclusions              types of misconduct.
the effect of an OIG exclusion on an                  under the current statutory and                          The enactment of HIPAA in 1996 and
individual’s or entity’s participation in             regulatory provisions.                                the Balanced Budget Act (BBA) of 1997,
the Federal health care programs.                        The Health Insurance Portability and               Public Law 105–33, further expanded
FOR FURTHER INFORMATION CONTACT:                      Accountability Act (HIPAA) of 1996,                   the OIG’s sanction authorities. These
Robin Schneider, Office of Counsel to                 Public Law 104–191, authorized the OIG                statutes extended the application and
the Inspector General, (202) 619–1306.                to provide guidance to the health care                scope of the current CMP and exclusion
SUPPLEMENTARY INFORMATION:                            industry to prevent fraud and abuse,                  authorities beyond programs funded by
                                                      and to promote high levels of ethical                 the Department to all ‘‘Federal health
I. Background                                         and lawful conduct. To further these                  care programs.’’ BBA also authorized a
   This Special Advisory Bulletin is                  goals, the OIG issues Special Advisory                new CMP authority to be imposed
designed to help all affected parties                 Bulletins about industry practices or                 against health care providers or entities
better understand the scope of payment                arrangements that potentially implicate               that employ or enter into contracts with
prohibitions that apply to items and                  the fraud and abuse authorities subject               excluded individuals for the provision
services provided to Federal program                  to enforcement by the OIG.                            of services or items to Federal program
beneficiaries, and to provide guidance                   In order to assist all affected parties in         beneficiaries.
to individuals and entities that have                 understanding the breadth of the                         In the discussion that follows, it
been excluded from the Federal health                 payment prohibitions that apply to                    should be understood that the
care programs and to those who employ                 items and services provided to Federal                prohibitions being described apply to
or contract with an excluded individual               program beneficiaries,2 this Special                  items and services provided, directly or
or entity to provide such items or                    Advisory Bulletin provides guidance to                indirectly, to Federal program
services.                                             individuals and entities that have been               beneficiaries. The ability of an excluded
                                                      excluded from Federal health care                     individual or entity to render items and
II. Special Advisory Bulletin:                                                                              services to others is not affected by an
Gainsharing Arrangements and CMPs                     programs, as well as to those who might
                                                                                                            OIG exclusion.
for Hospital Payments to Physicians To                employ or contract with an excluded
Reduce or Limit Services to                           individual or entity to provide items or              C. Exclusion From Federal Health Care
Beneficiaries                                         services reimbursed by a Federal health               Programs
                                                      care program.                                            The effect of an OIG exclusion from
A. Introduction
                                                      B. Statutory Background                               Federal health care programs is that no
   The Office of Inspector General (OIG)                                                                    Federal health care program payment
was established in the U.S. Department                   In 1977, in the Medicare-Medicaid                  may be made for any items or services
of Health and Human Services to                       Anti-Fraud and Abuse Amendments,                      (1) furnished by an excluded individual
identify and eliminate fraud, waste, and              Public Law 95–142, Congress first                     or entity, or (2) directed or prescribed by
abuse in the Department’s programs and                mandated the exclusion of physicians                  an excluded physician (42 CFR
to promote efficiency and economy in                  and other practitioners convicted of                  1001.1901). This payment ban applies to
Departmental operations. The OIG                      program-related crimes from                           all methods of Federal program
carries out this mission through a                    participation in Medicare and Medicaid                reimbursement, whether payment
nationwide program of audits,                         (now codified at section 1128 of the                  results from itemized claims, cost
inspections, and investigations. In                   Act). This was followed in 1981 with                  reports, fee schedules or a prospective
addition, the OIG has been given the                  Congressional enactment of the Civil                  payment system (PPS). Any items and
authority to exclude from participation               Monetary Penalties Law (CMPL), Public                 services furnished by an excluded
in Medicare, Medicaid and other                       Law 97–35, to further address health                  individual or entity are not
Federal health care programs 1                        care fraud and abuse (section 1128A of                reimbursable under Federal health care
individuals and entities who have                     the Act). The CMPL authorizes the                     programs. In addition, any items and
engaged in fraud or abuse, and to                     Department and the OIG to impose                      services furnished at the medical
impose civil money penalties (CMPs) for               CMPs, assessments and program                         direction or prescription of an excluded
certain misconduct related to Federal                 exclusions against individuals and                    physician are not reimbursable when
health care programs (sections 1128 and               entities who submit false or fraudulent,              the individual or entity furnishing the
1128A of the Social Security Act (the                 or otherwise improper claims for                      services either knows or should know of
Act)).                                                Medicare or Medicaid payment.                         the exclusion. This prohibition applies
   Recent statutory enactments have                   ‘‘Improper claims’’ include claims                    even when the Federal payment itself is
strengthened and expanded the OIG’s                   submitted by an excluded individual or                made to another provider, practitioner
                                                      entity for items or services furnished                or supplier that is not excluded.
  1 A Federal health care program is defined as any   during a period of program exclusion.                    The prohibition against Federal
plan or program that provides health benefits,           To enhance the OIG’s ability to                    program payment for items or services
whether directly, through insurance, or otherwise,    protect the Medicare and Medicaid
which is funded directly, in whole or in part, by                                                           furnished by excluded individuals or
the United States Government or a State health care   programs and beneficiaries, the                       entities also extends to payment for
program (with the exception of the Federal                                                                  administrative and management
Employees Health Benefits Program) (section             2 A Federal program beneficiary is an individual

1128B(f) of the Act). The most significant Federal    that receives health care benefits that are funded,
                                                                                                            services not directly related to patient
health care programs are Medicare, Medicaid,          in whole or in part, by a Federal health care         care, but that are a necessary component
Tricare and the Veterans programs.                    program.                                              of providing items and services to
                        Federal Register / Vol. 64, No. 189 / Thursday, September 30, 1999 / Notices                              52793

Federal program beneficiaries. This                or carrier, or a Medicaid fiscal agent, by   may only employ an excluded
prohibition continues to apply to an               an excluded individual;                      individual in limited situations. Those
individual even if he or she changes                 • Services performed by an excluded        situations would include instances
from one health care profession to                 administrator, billing agent, accountant,    where the provider is both able to pay
another while excluded.3 In addition,              claims processor or utilization reviewer     the individual exclusively with private
no Federal program payment may be                  that are related to and reimbursed,          funds or from other non-federal funding
made to cover an excluded individual’s             directly or indirectly, by a Federal         sources, and where the services
salary, expenses or fringe benefits,               health care program;                         furnished by the excluded individual
regardless of whether they provide                   • Items or services provided to a          relate solely to non-federal program
direct patient care.                               program beneficiary by an excluded           patients.
   Set forth below is a listing of some of         individual who works for an entity that         In many instances, the practical effect
the types of items or services that are            has a contractual agreement with, and is     of an OIG exclusion is to preclude
reimbursed by Federal health care                  paid by, a Federal health care program;      employment of an excluded individual
programs which, when provided by                   and                                          in any capacity by a health care
excluded parties, violate an OIG                     • Items or equipment sold by an            provider that receives reimbursement,
exclusion. These examples also                     excluded manufacturer or supplier,           indirectly or directly, from any Federal
demonstrate the kinds of items and                 used in the care or treatment of             health care program.
services that excluded parties may be              beneficiaries and reimbursed, directly or
                                                   indirectly, by a Federal health care         F. CMP Liability for Employing or
furnishing which will subject their
                                                   program.                                     Contracting With an Excluded
employer or contractor to possible CMP
                                                                                                Individual or Entity
liability.                                         D. Violation of an OIG Exclusion by an
   • Services performed by excluded                                                                If a health care provider arranges or
                                                   Excluded Individual or Entity                contracts (by employment or otherwise)
nurses, technicians or other excluded
individuals who work for a hospital,                  An excluded party is in violation of      with an individual or entity who is
nursing home, home health agency or                its exclusion if it furnishes to Federal     excluded by the OIG from program
physician practice, where such services            program beneficiaries items or services      participation for the provision of items
are related to administrative duties,              for which Federal health care program        or services reimbursable under such a
preparation of surgical trays or review of         payment is sought. An excluded               Federal program, the provider may be
treatment plans if such services are               individual or entity that submits a claim    subject to CMP liability if they render
reimbursed directly or indirectly (such            for reimbursement to a Federal health        services reimbursed, directly or
as through a PPS or a bundled payment)             care program, or causes such a claim to      indirectly, by such a program. CMPs of
by a Federal health care program, even             be submitted, may be subject to a CMP        up to $10,000 for each item or service
if the individuals do not furnish direct           of $10,000 for each item or service          furnished by the excluded individual or
care to Federal program beneficiaries;             furnished during the period that the         entity and listed on a claim submitted
   • Services performed by excluded                person or entity was excluded (section       for Federal program reimbursement, as
pharmacists or other excluded                      1128A(a)(1)(D) of the Act). The              well as an assessment of up to three
individuals who input prescription                 individual or entity may also be subject     times the amount claimed and program
information for pharmacy billing or who            to treble damages for the amount             exclusion may be imposed. For liability
are involved in any way in filling                 claimed for each item or service. In         to be imposed, the statute requires that
prescriptions for drugs reimbursed,                addition, since reinstatement into the       the provider submitting the claims for
directly or indirectly, by any Federal             programs is not automatic, the excluded      health care items or services furnished
health care program;                               individual may jeopardize future             by an excluded individual or entity
   • Services performed by excluded                reinstatement into Federal health care       ‘‘knows or should know’’ that the
ambulance drivers, dispatchers and                 programs (42 CFR 1001.3002).                 person was excluded from participation
other employees involved in providing                                                           in the Federal health care programs
transportation reimbursed by a Federal             E. Employing an Excluded Individual or       (section 1128A(a)(6) of the Act; 42 CFR
health care program, to hospital patients          Entity                                       1003.102(a)(2)). Providers and
or nursing home residents;                           As indicated above, BBA authorizes         contracting entities have an affirmative
   • Services performed for program                the imposition of CMPs against health        duty to check the program exclusion
beneficiaries by excluded individuals              care providers and entities that employ      status of individuals and entities prior
who sell, deliver or refill orders for             or enter into contracts with excluded        to entering into employment or
medical devices or equipment being                 individuals or entities to provide items     contractual relationships, or run the risk
reimbursed by a Federal health care                or services to Federal program               of CMP liability if they fail to do so.
program;                                           beneficiaries (section 1128A(a)(6) of the
   • Services performed by excluded                Act; 42 CFR 1003.102(a)(2)). This            G. How to Determine If an Individual or
social workers who are employed by                 authority parallels the CMP for health       Entity is Excluded
health care entities to provide services           maintenance organizations that employ           In order to avoid potential CMP
to Federal program beneficiaries, and              or contract with excluded individuals        liability, the OIG urges health care
whose services are reimbursed, directly            (section 1857(g)(1)(G) of the Act). Under    providers and entities to check the OIG
or indirectly, by a Federal health care            the CMP authority, providers such as         List of Excluded Individuals/Entities on
program;                                           hospitals, nursing homes, hospices and       the OIG web site (www.hhs.gov/oig)
   • Administrative services, including            group medical practices may face CMP         prior to hiring or contracting with
the processing of claims for payment,              exposure if they submit claims to a          individuals or entities. In addition, if
performed for a Medicare intermediary              Federal health care program for health       they have not already done so, health
                                                   care items or services provided, directly    care providers should periodically
  3 For example, the prohibition against Federal
                                                   or indirectly, by excluded individuals or    check the OIG web site for determining
program payment for items and services would
continue to apply in the situation where an        entities.                                    the participation/exclusion status of
excluded pharmacist completes his or her medical     Thus, a provider or entity that            current employees and contractors. The
degree and becomes a licensed physician.           receives Federal health care funding         web site contains OIG program
52794                     Federal Register / Vol. 64, No. 189 / Thursday, September 30, 1999 / Notices

exclusion information and is updated in                   Dated: September 21, 1999.                 DEPARTMENT OF THE INTERIOR
both on-line searchable and                             June Gibbs Brown,
downloadable formats. This information                  Inspector General.                           Bureau of Land Management,
is updated on a regular basis. The OIG                  [FR Doc. 99–25427 Filed 9–29–99; 8:45 am]
web site sorts the exclusion of                         BILLING CODE 4150–04–P
                                                                                                     [NM–070–1430–01; NMNM 97495]
individuals and entities by: (1) The legal
basis for the exclusion, (2) the types of                                                            Notice of Realty action—Recreation
individuals and entities that have been                                                              and Public Purpose (R&PP) Act
excluded, and (3) the State where the                                                                Classification, New Mexico
                                                        DEPARTMENT OF THE INTERIOR
excluded individual resided at the time                                                              AGENCY:   Bureau of Land Management
they were excluded or the State where                   Fish and Wildlife Service                    Interior.
the entity was doing business. In
                                                                                                     ACTION: Notice.
addition, the entire exclusion file may                 Notice of Receipt of Application for
be downloaded for persons who wish to                   Approval                                     SUMMARY:   The following described
set up their own database. Monthly                                                                   public land in San Juan County, New
updates are posted to the downloadable                    The following applicant has applied
                                                                                                     Mexico have been examined and found
information on the web site.                            for approval to conduct certain activities   suitable for classification for lease or
                                                        with birds that are protected in             conveyance to the City of Farmington
H. Conclusion                                           accordance with the Wild Bird                under the provisions of the Recreation
                                                        Conservation Act of 1992. This notice is     and Public Purposes (R&PP) Act, as
   In accordance with the expanded
                                                        provided pursuant to Section 112(4) of       amended (43 U.S.C. 869 et seq.). City of
sanction authority provided in HIPAA
                                                        the Wild Bird Conservation Act of 1992,      Farmington proposes to use the land for
and BBA, and with limited exceptions,4
                                                        50 CFR 15.26(c).                             a sports complex with adjoining trail
an exclusion from Federal health care
programs effectively precludes an                         Applicant: Jerry Jennings, on behalf of    system.
excluded individual or entity from                      the Cooperative Breeding Program for         New Mexico Principal Meridian
being employed by, or under contract                    Keel-billed toucan, Red-breasted toucan,     T. 29 N., R. 13 W.,
with, any practitioner, provider or                     Saffron toucanet, and Chestnut-eared           sec. 6, lots 9, 13, SE1⁄4SE1⁄4,
supplier to provide any items and                       aracari (CB006). The applicant wishes to         W1⁄2SW1⁄4SE1⁄4, S1⁄2SE1⁄4SW1⁄4SE1⁄4.
services reimbursed by a Federal health                 amend the approved cooperative               containing 7.95 acres, more or less.
care program. This broad prohibition                    breeding program to include the Spot­
                                                                                                     COMMENT DATES: On or before November
applies whether the Federal                             billed toucanet (Selenidera
                                                                                                     15, 1999 interested parties may submit
reimbursement is based on itemized                      maculirostris). The Toucan Preservation
                                                                                                     comments regarding the proposed
claims, cost reports, fee schedules or                  Center maintains responsibility for the
                                                                                                     conveyance or classification of the lands
PPS. Furthermore, it should be                          oversight of the program.                    to the Bureau of Land Management at
recognized that an exclusion remains in                   Written data or comments should be         the following address. Any adverse
effect until the individual or entity has               submitted to the Director, U.S. Fish and     comments will be reviewed by the Field
been reinstated to participate in Federal               Wildlife Service, Office of Management       Office Manager, Bureau of Land
health care programs in accordance with                 Authority, 4401 North Fairfax Drive,         Management, 1235 La Plata Highway,
the procedures set forth at 42 CFR                      Room 700, Arlington, Virginia 22203          Suite A, Farmington, New Mexico
1001.3001 through 1001.3005.                            and must be received by the Director         87401 who may sustain, vacate, or
Reinstatement does not occur                            within 30 days of the date of this           modify this reality action. In the
automatically at the end of a term of                   publication.                                 absence of any adverse comments, this
exclusion, but rather, an excluded party                                                             realty action becomes the final
                                                          Documents and other information
must apply for reinstatement.                                                                        determination of the Department of the
                                                        submitted with these applications are
                                                                                                     Interior and effective November 30,
   If you are an excluded individual or                 available for review, subject to the         1999.
entity, or are considering hiring or                    requirements of the Privacy Act and
                                                                                                     FURTHER INFORMATION: Information
contracting with an excluded individual                 Freedom of Information Act, by any
or entity, and question whether or not                  party who submits a written request for      related to this action, including the
                                                                                                     environmental assessment, is available
the employment arrangement may                          a copy of such documents to the
                                                                                                     for review at the Bureau of Land
violate the law, the OIG Advisory                       following office within 30 days of the
                                                                                                     Management, Farmington Field Office,
Opinion process is available to offer                   date of publication of this notice: U.S.
                                                                                                     1235 La Plata Highway, Suite A,
formal binding guidance on whether an                   Fish and Wildlife Service, Office of         Farmington, NM 87401.
employment or contractual arrangement                   Management Authority, 4401 North
                                                                                                     SUPPLEMENTARY INFORMATION: Upon
may be in violation of the OIG’s                        Fairfax Drive, Room 700, Arlington,
exclusion and CMP authorities. The                      Virginia 22203. Phone: (703/358–2095);       publication of this notice in the Federal
                                                                                                     Register, the lands will be segregated
process and procedure for submitting an                 FAX: (703/358–2298).
                                                                                                     from all other forms of appropriation
advisory opinion request can be found                     Dated: September 24, 1999.                 under the public land laws, including
at 42 CFR 1008, or on the OIG web site
                                                        Dr. Rosemarie Gnam,                          the general mining laws, except for lease
at www.hhs.gov/oig.                                                                                  or conveyance under the R&PP Act and
                                                        Chief, Branch of Operations, Office of
                                                        Management Authority.                        leasing under the mineral leasing laws.
  4 In certain instances, a State health care program   [FR Doc. 99–25398 Filed 9–29–99; 8:45 am]    The segregative effect will terminate
may request a waiver of an exclusion if an              BILLING CODE 4310–55–P
                                                                                                     upon issuance of the patent to City of
individual or entity is the sole community                                                           Farmington, or two (2) years from the
physician or the sole source of essential specialized                                                date of this publication, whichever
services in a community (42 CFR 1001.1801(b)).                                                       occurs first.
